<html>
<title> - ZIMBABWE: DEMOCRACY ON THE LINE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                    ZIMBABWE: DEMOCRACY ON THE LINE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, JUNE 13, 2000

                               __________

                           Serial No. 106-138

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-616 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT E. ANDREWS, New Jersey
DANA ROHRABACHER, California         ROBERT MENENDEZ, New Jersey
DONALD A. MANZULLO, Illinois         SHERROD BROWN, Ohio
EDWARD R. ROYCE, California          CYNTHIA A. McKINNEY, Georgia
PETER T. KING, New York              ALCEE L. HASTINGS, Florida
STEVE CHABOT, Ohio                   PAT DANNER, Missouri
MARSHALL ``MARK'' SANFORD, South     EARL F. HILLIARD, Alabama
    Carolina                         BRAD SHERMAN, California
MATT SALMON, Arizona                 ROBERT WEXLER, Florida
AMO HOUGHTON, New York               STEVEN R. ROTHMAN, New Jersey
TOM CAMPBELL, California             JIM DAVIS, Florida
JOHN M. McHUGH, New York             EARL POMEROY, North Dakota
BILL LUTHER, Minnesota               WILLIAM D. DELAHUNT, Massachusetts
LINDSEY GRAHAM, South Carolina       GREGORY W. MEEKS, New York
ROY BLUNT, Missouri                  BARBARA LEE, California
KEVIN BRADY, Texas                   JOSEPH CROWLEY, New York
RICHARD BURR, North Carolina         JOSEPH M. HOEFFEL, Pennsylvania
PAUL E. GILLMOR, Ohio
GEORGE P. RADANOVICH, California
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                         Subcommittee on Africa

                 EDWARD R. ROYCE, California, Chairman
AMO HOUGHTON, New York               DONALD M. PAYNE, New Jersey
STEVE CHABOT, Ohio                   ALCEE L. HASTINGS, Florida
TOM CAMPBELL, California             GREGORY W. MEEKS, New York
GEORGE RADANOVICH, California        BARBARA LEE, California
THOMAS G. TANCREDO, Colorado
                Tom Sheehy, Subcommittee Staff Director
               Malik M. Chaka, Professional Staff Member
        Charisse Glassman, Democratic Professional Staff Member
                 Charmaine V. Houseman, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Nancy Powell, Acting Assistant Secretary of State, 
  for African Affairs............................................     5
Mr. Morgan Tsvangirai, President, Movement for Democratic Change.    11
The Honorable Chester Crocker, Professor, Institute for the Study 
  of Diplomacy, Georgetown University............................    19
Mr. Pat Merloe, Director of Programs on Elections and Political 
  Processes, National Democratic Institute.......................    23
Mr. Lloyd O. Pierson, Regional Director for Africa, International 
  Republican Institute...........................................    25

                                APPENDIX

Prepared statements:

The Honorable Edward R. Royce, a Representative in Congress from 
  California and Chairman, Subcommittee on Africa................    40
The Honorable Barbara Lee, a Representative in Congress from 
  California.....................................................    42
Ms. Nancy J. Powell..............................................    45
Mr. Morgan Tsvangirai............................................    49
The Honorable Chester Crocker....................................    57
Mr. Pat Merloe...................................................    63
Mr. Lloyd O. Pierson.............................................    85

Additional material submitted for the record:

Letter dated June 8, 2000, from Representative Ros-Lehtinen to 
  Zimbabwe President Robert Mugabe...............................    88
Letter dated June 8, 2000, from Representative Ros-Lehtinen to 
  Honorable Madeleine K. Albright, Secretary-U.S. Department of 
  State..........................................................    90
Letter dated June 12, 2000, from Representative Ros-Lehtinen to 
  Honorable Thomas McDonald, U.S. Ambassador to the Republic of 
  Zimbabwe.......................................................    92
Responses to questions for the record from the Department of 
  State..........................................................    93


                    ZIMBABWE: DEMOCRACY ON THE LINE

                              ----------                              


                         Tuesday, June 13, 2000

                  House of Representatives,
                            Subcommittee on Africa,
                      Committee on International Relations,
        Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:16 a.m. in 
room 2172, Rayburn Office Building, Hon. Edward R. Royce 
(chairman of the Subcommittee) presiding.
    Mr. Royce. The hearing of the Africa Subcommittee will come 
to order.
    Today the Subcommittee will look at the political chaos in 
Zimbabwe, where legislative elections are scheduled for June 24 
and 25. Our witnesses today will tell how President Robert 
Mugabe is sparing no means to maintain power for his ZANU 
People's Front.
    Of late, we have seen the spectacle of ZANU supporters 
attacking schools, having taken their cue from the justice 
minister, who accused the teachers of Zimbabwe of polluting the 
minds of young people. The Zimbabwe Teachers Association says 
at least 200 schools have been disrupted by intimidation and 
attack. Teachers have been dragged from their classrooms. 
Teachers have been stripped naked in front of their students 
and forced to chant pro-ZANU slogans. Teachers have been beaten 
unconscious.
    This is instigated by a government which professes a 
concern for education. It is no coincidence that teachers in 
the past served as the poll workers in previous elections. 
There can be no mistake that a message is being sent.
    It has not escaped the attention of the world that the 
government police have resorted to colonial era special powers 
to restrict political activity. Zim Rights, the country's main 
human rights organization, has repeatedly denounced 
shortcomings in the electoral process and abuses by state 
officials. It is clear that free and fair elections are not 
desired by the Mugabe government.
    The political intimidation has been deadly recently. At 
least 31 persons, mostly Black Movement for a Democratic Change 
supporters, have been killed. Hundreds others have been beaten, 
raped, or forced to flee their homes. Ominously, so-called war 
veterans doing the government's bidding have been deployed to 
Matabeleland, where they wear red berets. This is a not-so-
veiled threat to renew the slaughter that the Mugabe government 
orchestrated there in the 1980's, which resulted in 10,000 
deaths, should it lose this election.
    I should point out that there are veterans of the war who 
are increasingly speaking out against the terror of these 
government-directed groups and pointing out that some in the 
groups are far too young to have been involved in the 
liberation struggle to begin with.
    Meanwhile, the Zimbabwe economy is collapsing. The illegal 
land seizures, designed to intimidate the political opposition, 
are accelerating the demise of an already troubled and 
corrupted economy. Food shortages are sure to come. The 
country's health services also are in crisis.
    The State Department recently said that ``The U.S. is 
deeply troubled that Zimbabwe's previous reputation as a law-
abiding democratic society is in jeopardy. Violence and 
intimidation are undermining the rule of law and the very 
foundation of democracy in Zimbabwe.''
     I think this isn't quite right. Sadly, the rule of law and 
democracy have long been compromised in post-independence 
Zimbabwe. It has been a de facto one-party state where 
political opponents have been intimidated and physically 
abused.
    The U.S. and the international community have sowed the 
seeds for today's crisis, sweeping these troubling realities 
under the rug for years and indulging the Mugabe government 
with aid. U.S. bilateral aid alone has totaled $750 million 
while the Mugabe government has bought luxury properties 
abroad. Land reform has not been a government priority.
    The results are in. After President Mugabe has played the 
donors like a fiddle for 20 years, Zimbabwe is staring into the 
abyss.
    Today we will hear about the role that international 
observers will play in Zimbabwe's upcoming legislative 
elections. The Mugabe government is putting up roadblocks to 
observers. The opposition wants observers. Observers should be 
sent but international election observers must be prepared to 
make hard-nosed judgments, calling attention to election 
shortcomings.
    The political opposition in Zimbabwe has shown tremendous 
courage in the face of terrifying and cowardly government 
attacks while practicing nonviolence. International observers 
have a moral obligation to honor democracy by doing their job 
with the highest level of integrity.
    What Zimbabwe desperately needs is a government that can 
promote a respect for the rule of law. Unless the political 
landscape is dramatically transformed, I do not see this coming 
about any time soon. That will be a tragedy for the vast number 
of Zimbabweans who are committed to peace.
    I will now turn to Mr. Hastings for an opening statement.
    [The prepared statement of Mr. Royce appears in the 
appendix.]
    Mr. Hastings. Thank you very much, Mr. Chairman, and thank 
you very much for holding this hearing. I will not belabor it 
by a substantial amount of commentary at this point in time. I 
really do appreciate your holding the hearing and the witnesses 
that are here, I am sure are going to edify us regarding 
perhaps what might be just my central concern. That is what 
should the United States policy be toward Zimbabwe and how, if 
at all, are we to implement it with the idea in mind of trying 
to provide for sustainable democracy.
    Mr. Chairman, our colleague Representative Barbara Lee is 
on route but she has asked, with your permission and unanimous 
consent, that I offer her statement for the record.
    Mr. Royce. Without objection.
    Mr. Hastings. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Lee appears in the 
appendix.]
    Mr. Hastings. Mr. Chairman, if you recall, you and I 
visited Zimbabwe. I believe it was your very first visit to the 
African continent. Little did I know when we were there at the 
Organization of African Unity's meeting and had an opportunity 
to visit the countryside, it seemed at least headed in a 
direction that I would have perceived at that time as being 
positive.
    Unfortunately, that is no longer the case and what happened 
recently legislatively, for the larger audience assembled, is 
the chairman of the International Relations Committee, Chairman 
Gilman and myself and you, Mr. Chairman, and other Members did 
pass a resolution that I believe reflects the sense of Congress 
regarding the violence in Zimbabwe and the breakdown of the 
rule of law in the troubled preelection period.
    I will be interested to hear from Ambassador Powell, as 
well as our other witnesses, how they are going to have an 
election June 24 and 25 when I do not see the infrastructure 
that will allow for free and fair elections being there.
    Thank you very much, Mr. Chairman, for holding the hearing 
and I look forward to hearing from the witnesses.
    Mr. Royce. Thank you, Mr. Hastings.
    We have also been joined by Ileana Ros-Lehtinen from 
Florida and would you like to make an opening statement?
    Ms. Ros-Lehtinen. Yes. Thank you so much, Mr. Chairman.
    Given the breakdown in the rule of law, the violations of 
human rights, the crackdown against democratic reform 
activists, the bombings of independent newspapers and other 
violence which has plagued the preelection period in Zimbabwe, 
today's discussion takes on added importance.
    My concerns regarding these challenges to democracy and 
free independent institutions prompted me to cosponsor House 
Resolution 500, a resolution introduced by our full Committee 
Chairman Ben Gilman addressing these grave issues.
    However, I would like to make use of the opportunity 
afforded to me by our colleague, Chairman Royce, to address the 
case of Cuban doctors Noris Pena Martinez and Leonar Cordoba 
Rodriguez. These two individuals were on a medical mission in 
Zimbabwe when they denounced the Castro regime and sought 
refuge from the Zimbabwe government.
    The unfortunate response of the Zimbabwe government was to 
send armed soldiers to abduct these two doctors and forcibly 
deport them to Cuba against their will. This plan was foiled, 
however, and the two doctors have been sitting in jail ever 
since.
    I have written to President Mugabe and have contacted the 
Zimbabwe Embassy in D.C. I have written to Secretary Albright 
and to Ambassador McDonald and my office has been in contact 
with the State Department requesting that our officials visit 
the two doctors to ascertain their health status and the 
conditions in which they are being kept, as well as work to 
secure the release of Drs. Martinez and Rodriguez to the care 
of the U.N. High Commission for Refugees and to press ahead 
with UNHCR efforts to safeguard the procedures in place for 
such cases so that the doctors are free to travel to the U.S., 
where they have been guaranteed refugee status.
    I ask, Mr. Chairman, if these communications be entered 
into the record of today's hearings. Given the ultimatum issued 
by the Castro regime over the weekend regarding authorization 
of travel for these doctors to any other country except for the 
U.S., I ask that our State Department officials stand firm in 
their commitment to afford refugee status in the U.S. to these 
two Cuban doctors.
    I would ask Assistant Secretary Powell to include in her 
remarks today an update on the status of U.S. and United 
Nations efforts to ensure the safety and well-being of these 
doctors who have suffered greatly for denouncing the oppressive 
Castro regime and for embarrassing this Communist dictatorship 
by seeking asylum.
    I ask that the Zimbabwe government live up to the ideals 
which gained them their independence in 1980 and not allow 
Cuba's tyrannical ruler to influence them into taking actions 
which run contrary to all legal and moral standards.
    Mr. Chairman, I ask that you enter these letters into the 
record.
    Mr. Royce. Without objection, they will be entered in the 
record.
    Ms. Ros-Lehtinen. Thank you.
    [The letter referred to appears in the appendix.]
    Mr. Royce. Thank you.
    We are now going to go to the Ranking Member of this 
Committee, Mr. Donald Payne.
    Mr. Payne. Thank you very much, Mr. Chairman, for calling 
this very important meeting. I will be relatively brief.
    We are aware that problems still exist with the continued 
presence of the military of Zimbabwe in the Democratic Republic 
of Congo. That situation is far from over, since recent 
conflicts between Uganda and Rwanda, both supporting different 
rebel groups, have broken out and have continued on for some 
time.
    We hope that the resolution of the Congo situation will 
also have a positive impact on stabilization in Zimbabwe. Many 
problems in Zimbabwe originate from people in that country 
wanting their boys, their husbands, and their men home. This 
becomes a political issue, therefore, making Mr. Mugabe move to 
other means of diverting attention from a situation that is 
real regarding the men who are in that war.
    There is certainly a serious problem with the land issue 
and it has been an issue that has been there for several 
decades. The manner in which the British handled Northern 
Rhodesia, currently Zambia, was adequate. Funds were made 
available to purchase arable land predominantly owned by white 
settlers.
    The land had undeniably been taken from the indigenous 
people, but at least there was a solution by the British to 
produce funds to purchase the land from the settlers. 
Therefore, the situation was not volatile, as we presently find 
it in Zimbabwe, where 20 years later, this issue still remains.
    Lancaster House was expected to resolve these issues yet 
they were not resolved. There is question concerning corruption 
in addition to the land situation, but that is another story.
    My point is simply that you can take an old issue that 
should have been dealt with and when a politician finds he is 
in trouble, he simply attempts to exacerbate that problem in 
order to cover up his own shortcomings.
    So I am just here to listen to the testimony. We hope that 
these elections will proceed fairly. We deplore the behavior of 
the government along with some of the supporters of the ruling 
party. This being said, I will yield back the balance of my 
time.
    Mr. Royce. Thank you, Mr. Payne.
    We will now go to our first panel. Nancy J. Powell is a 
career senior Foreign Service member who was named Deputy 
Assistant Secretary for African Affairs in the summer of 1999. 
Most recently she served as Ambassador to Uganda. Ambassador 
Powell has also had several diplomatic posts in Asia, as well 
as Togo and Ottawa. She is a graduate of Northern Iowa 
University. Today she speaks to us as the Acting Assistant 
Secretary of State for African Affairs.
    Ambassador?

STATEMENT OF NANCY POWELL, ACTING ASSISTANT SECRETARY OF STATE, 
      BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Powell. Mr. Chairman, thank you for the opportunity to 
testify this morning on Zimbabwe. As a country that struggled 
successfully against white minority rule, Zimbabwe was a beacon 
of hope for the region and the world. The United States made a 
pledge to help the new state of Zimbabwe and has invested over 
$750 million since Zimbabwe's 1980 independence to improve the 
lives of all Zimbabweans.
    Ethnic violence erupted in the mid-1980's as the government 
brutally crushed the perceived threat from the Ndebele people 
in the south. However, for most Zimbabweans, life got better 
after independence. Services and access to education expanded 
rapidly and it appeared that the scars of Zimbabwe's liberation 
war were healing. As a friend of Zimbabwe, we deeply regret 
that Zimbabwe's promising future has not yet been realized.
    Zimbabwe's commitment to democracy is now being severely 
tested as the ruling party faces formidable competition for the 
first time since independence. As Zimbabwe moves into the final 
phase of the political campaign for the June 24-25 
parliamentary elections, the country's previous reputation as a 
law-abiding society is in jeopardy.
    The political campaign has been brutal. Supporters of the 
ruling Zimbabwe African National Union Patriotic Front, ZANU-
PF, have staged occupations of privately owned farms, and the 
government of Zimbabwe has refused to implement court orders 
calling on the police to evict the occupiers. Farmworkers have 
been forced to participate in reeducation camps and announce 
their loyalty to ZANU-PF under threat of death. The ruling 
party has expanded its violent campaign beyond the farms to 
include the beating and rape of teachers, city workers, 
election monitors, and other professionals suspected of 
supporting the strongest opposition party, the Movement for 
Democratic Change.
    While violence has come from all quarters, ZANU-PF's 
campaign of intimidation and violence is especially worrisome 
because it appears to have been conceived at the highest levels 
of the government of Zimbabwe. Government resources were used 
to transport war veterans to commercial farms that were 
carefully targeted for occupation. Respect for property rights, 
a critical component of any nation's development, has been 
undermined as criminals take advantage of police inaction to 
pillage and destroy crops and farm property. Some senior 
members of the government have encouraged the violence and 
destruction by ignoring court orders and taking few steps to 
arrest and prosecute the perpetrators of violence.
    The government has, in effect, abdicated its responsibility 
to respect and uphold the human and political rights of all 
Zimbabweans. Instead, it has approached the elections as if all 
political opponents were traitors who do not deserve the basic 
protections so critical to the success of democracy. We were 
appalled when President Mugabe characterized all white farmers 
as ``enemies of the state.'' The actions of ZANU-PF endorsed by 
the government have polarized society and undermined the rule 
of law in Zimbabwe.
    We have approached the government of Zimbabwe at all levels 
to express our deep concerns over the violence and erosion of 
the rule of law. The U.S. Ambassador in Harare has met with 
senior officials to underscore U.S. concerns. We have issued 
public statements in Washington and Harare calling on the 
government to respect court orders, end illegal farm invasions, 
and prosecute the perpetrators of violence. We have also 
expressed our concerns directly to the Zimbabwe Ambassador to 
the United States.
    The United States has suspended support for the technical 
support unit of the government's Land Reform and Redistribution 
Program pending a return to the principles agreed upon between 
the donors and the government of Zimbabwe at the 1998 donors 
conference on land reform. We have made diplomatic approaches 
to other donor countries and to Zimbabwe's neighbors in the 
Southern African Development Community to try to bring an end 
to the occupations and violence, stressing that events in 
Zimbabwe have an effect on the entire region.
    The government of Zimbabwe has repeatedly stated that it 
will impose its own solution on the land reform issue and it 
has amended the constitution and supporting legislation to 
allow it to seize 804 commercial farms without payment of full 
compensation. It claims that it will not pay for land that was 
taken from indigenous people during the colonial period but 
will pay, over a period of 5 years, for improvements to the 
seized land. The government has begun to issue notices to the 
identified farm owners stating that they have until July 2 to 
appeal the terms of the property seizures but not the seizure 
itself.
    Zimbabwe's approach is dangerous and will discourage 
investment and reforms critical to the country's long-term 
future. It is worth noting, however, that to date, the 
government of Zimbabwe has not confiscated any land without 
payment of adequate compensation.
    The government of Zimbabwe does not appear to be thinking 
about the long-term impact that its actions will have on the 
country's reputation in the region and the world. It has used a 
legitimate issue, the need for more equitable distribution of 
land, as a political tool to occupy farms, incite racial 
tensions, intimidate rural voters and brutalize real and 
perceived opponents of ZANU-PF.
    The United States has made clear to the government of 
Zimbabwe that we recognize the historical inequities on land 
distribution and the need for meaningful land reform. We want 
to resume our technical assistance program that we suspended in 
late March.
    The 1998 agreement still offers the best prospect for a 
fair and equitable land redistribution. The government's 
apparent rejection of this agreement, which it signed after 
lengthy consultations with all stakeholders, suggests that it 
may not really seek a workable long-term solution. Instead, it 
may be creating a crisis designed to benefit ZANU-PF in the 
June 24-25 elections.
    Zimbabweans are paying a terrible price. The economy has 
suffered. Agricultural production and tourism are down. 
Inflation is over 70 percent, investment has decreased markedly 
and unemployment is up. Foreign exchange reserves are down to 1 
day's cover and fuel and other imports commodities are in short 
supply.
    Mr. Chairman, the headlines from Zimbabwe are not good 
these days but it is important to keep in mind that there has 
been a deepening of democracy, as ironic as that may seem, even 
as the government is trying to manipulate the political process 
for its own benefit. Democratic forces have matured in 
Zimbabwe. Millions of Zimbabweans demand change and the vast 
majority are using peaceful, democratic means to pursue it.
    In February of this year, a majority of voters peacefully 
rejected a government-sponsored constitution that would have 
increased Presidential powers and allowed the government to 
seize farmland without full compensation.
    Zimbabwe is rich in natural resources and human capital. 
Zimbabweans are among the most educated and politically active 
people on the continent of Africa. A vibrant civil society has 
emerged that can serve as a long-term foundation for democratic 
development.
    A new political party has been formed that has significant 
support and is comprised of all racial and ethnic groups. The 
United States has a long-standing friendship with the people of 
Zimbabwe and we intend to do everything we can to preserve and 
advance democratic gains, protect civil society, and help 
Zimbabweans to uphold the rule of law.
    Mr. Royce. Excuse me. One moment, Ambassador.
    I am just going to remind Mr. Tsvangirai, your mike is on, 
so I am going to suggest that maybe you could hit your mike 
button and just turn it off until we come to the second panel, 
if I could make that recommendation. Thank you.
    Ambassador, if you will continue, but I am going to ask you 
to summarize somewhat because we have two votes and at one 
point I am going to have to recess for those two votes and then 
we will come back. Go ahead, Ambassador Powell.
    Ms. Powell. To this end, we believe the June 24-25 
parliamentary elections are a turning point in the democratic 
history of Zimbabwe. The government is facing real competition 
and political apathy has ended.
    Conditions for free and fair elections do not yet exist in 
Zimbabwe. Given our concern for a credible process, even though 
we know the electoral foundation is flawed, we will continue 
our efforts to make the elections as free and fair as possible.
    Democracy and governance are the top priorities as jointly 
conceived by the U.S. Embassy in Harare and USAID for USAID's 
$12 million-a-year program in Zimbabwe. For these elections, we 
are funding the training of over 10,000 domestic election 
monitors. We are also funding training for polling officials of 
all political parties. We are funding the NGO's involved in 
voter education efforts to audit the rolls and helping the 
semi-independent Election Supervisory Commission to cope with 
the administrative demands of the elections.
    The U.S. Embassy in Harare has also hosted distinguished 
international authorities on elections to meet with government 
and opposition officials and share their experience to promote 
credible elections. We are funding human rights organizations 
that are documenting and protesting abuses in the current 
campaign. We are also funding international observers from 
KwaZulu Natal organization, from the SADC Parliamentary Forum, 
as well as grants that have been awarded to the National 
Democratic Institute and the International Republican 
Institute, to monitor the preelection and election process. Our 
officials from the embassy will also monitor the elections.
    We have told the government of Zimbabwe that the United 
States wants to help with land reform but that our ability to 
assist with depend in large part upon the holding of credible 
elections and a return to the principles agreed upon at the 
1998 donor conference.
    Mr. Chairman, our long-term goal in Zimbabwe is to help 
build a sustainable democracy based on respect for the rule of 
law and protection of human rights. We seek also a market-
oriented economy that attracts investment and addresses 
inequities and independent institutions accountable to its 
citizenry. We want to see a robust civil society that can 
engage and influence the government of Zimbabwe, stronger 
leadership in combating the HIV/AIDS pandemic, and more social 
services to meet the needs of the poorest Zimbabweans. Almost 
all U.S. Government assistance to Zimbabwe, with the exception 
of funds to combat the HIV/AIDS epidemic, is channeled through 
nongovernmental organizations.
    We are also seeking, in addition to our domestic goals, to 
help Zimbabwe to implement the Lusaka Accord to bring peace to 
the Democratic Republic of Congo where Zimbabwe has deployed 
some 12,000 troops. With stable democratic institutions at 
home, Zimbabwe can once again play role in enhancing regional 
stability. We look forward to working with Congress to seek a 
better future for all Zimbabweans. Thank you.
    [The prepared statement of Ms. Powell appears in the 
appendix.]
    Mr. Royce. Thank you, Ambassador.
    We are going to stand in recess until these two votes are 
over. We will be back in about 20 minutes. Thank you.
    [Recess.]
    Mr. Royce. We will reconvene at this time.
    Ambassador Powell, maybe I can begin by asking you some 
questions. The first would be what does the U.S. need to see, 
at a minimum, for the upcoming elections for those elections to 
be satisfactory in our view? Ambassador?
    Ms. Powell. Mr. Chairman, we are looking for several 
things. We know already that the process has been flawed in 
terms of the gerrymandering of the districts, the intimidation 
of some of those who are participating in the elections. We 
would like to see that cease and the elections held under 
peaceful conditions, under well organized conditions.
    We hope that the monitors, both domestic and international, 
will be deployed and be allowed to observe the elections to 
ensure that the vote is held fairly, that the rules are 
observed, as well, and that the people who are counting can be 
observed in a transparent manner.
    Mr. Royce. Would we be prepared to say they are 
unacceptable if these conditions were not met? Is there a 
minimum turnout percentage that we would consider, given all 
the intimidation that has gone on, as a requirement?
    Ms. Powell. We are going to be looking to our international 
observers, as well as our mission people, to be advising on 
that but clearly there will be a minimum standard that has to 
be met and we will be pointing out, based on the observation, 
the direct observation of the elections, where the flaws have 
been.
    Mr. Royce. Would we be prepared to say that the results are 
unacceptable if the results do not meet these criteria that you 
have enumerated?
    Ms. Powell. I think it is up to the people of Zimbabwe to 
declare the election unacceptable, not the United States, but 
we surely can describe it very accurately, based on the 
observations that we will have in place in terms of the various 
flaws that have occurred already in the process, as well as 
those that may occur on election day.
    Mr. Royce. Given the flaws that have occurred in the 
process, and let us for a moment assume that those flaws 
continue to occur, that the intimidation and the beatings and 
the killings continue up through the election, are there 
actions we are prepared to take if the elections are not fair 
and free?
    Ms. Powell. We want to wait until the elections are over to 
look at that. Clearly there are already some things that have 
taken place. We have suspended the land reform support, the 
technical unit that has been there. We have been counseling 
with the government of Zimbabwe and others on what is needed 
for a free and fair election under democratic rule.
    Mr. Royce. I would like to read you correspondence I 
received from a Zimbabwean democratic activist. He writes, 
``Mr. Mugabe is a tyrant and is personally responsible for 
massive human rights abuses during his 20 years in power. In 
the 1980's he was responsible for near genocide and this year 
has been responsible for the systematic torture of thousands of 
Zimbabweans and the murder of opposition party supporters. He 
has also made a direct threat against an ethnic minority, 
namely white farmers, who are branded by him as enemies of the 
state.''
    ``In doing so, Mr. Mugabe is guilty of committing crimes 
against humanity and now is the time for the international 
community to warn Mr. Mugabe that if the violence and 
occupations continue, he will face a similar indictment to the 
one prepared for Mr. Milosovic lats year. In like vein, steps 
should be commenced to identify Mr. Mugabe's foreign assets and 
he should be warned that if the violence and occupations 
continue, these assets will be seized. The time for quiet 
diplomacy is over and this is the only language that Mr. Mugabe 
understands.'' Now, that is the message I received.
    What do you think about his crimes against humanity charges 
and what about seizing the assets of Zimbabwe government 
officials as a matter of U.S. policy should conditions 
deteriorate further? Let's say it leads to mass slaughter 
again, like we saw in the 1980's. What about that strategy, 
given that so much money has been moved offshore, you have 
these palatial estates that have been purchased outside of the 
country by government officials? What about that strategy? Is 
that something that the United States might want to entertain 
as a strategy to ensure a fair and free election?
    Ms. Powell. Let me say that the United States has been 
documenting the human rights abuses of Zimbabwe annually in our 
human rights report. We have had numerous discussions with the 
government officials on the areas where we have found 
discrepancies. The election is the most recent of those and 
particularly has been the focus of a lot of attention over the 
past few months.
    The question of dealing with war crimes--human rights 
violations on an international scale--is one that would have to 
be looked at much more seriously in terms of specifics and the 
specific responsibility of individuals in the government of 
Zimbabwe.
    I have no information on Mugabe's particular personal 
overseas assets. That information, I am sure, could be 
developed through organs within the government of Zimbabwe. 
There does not appear to be the large fortune that has been 
assumed by other people in other countries, but that is 
something that could be looked at by the government of 
Zimbabwe.
    Mr. Royce. Thank you, Ambassador Powell, and I am going to 
turn to Mr. Payne, our Ranking Member, now for his questions.
    Mr. Payne. Thank you very much.
    I had the good fortune to be on a CODEL led by our 
colleagues Amo Houghton and Richard Gephardt, which included 
nearly a dozen Members of Congress. It was probably one of the 
most successful CODEL's, by virtue of bringing in a number of 
new people.
    The meeting we had with Mr. Mugabe seemed to be relatively 
positive because, as you know, up until more recent times, 
maybe a year or so, there was very little being done concerning 
the HIV virus and AIDS.
    The meeting was positive because he admitted that there is 
a very serious problem. He admitted that there is a lot to be 
done, which was a break from his past denial that a problem 
exists.
    Could you inform us about any programs that are going on or 
what the USAID may be doing there that relates to this issue?
    Ms. Powell. We have been working very hard with AID on the 
HIV/AIDS program. This the one area where we do work with the 
government of Zimbabwe rather than through NGO's.
    Our total is approximately $7 million for this year out of 
our $12 million program going into the HIV program. It includes 
creating public awareness, testing and counseling, and a 
variety of interventions trying to encourage a turndown in the 
infection rate, which is one of the highest in Africa, 25 
percent of the population.
    We are also encouraging President Mugabe to be much more 
forceful in his leadership on this issue, recognizing that 
Presidential and executive leadership throughout Africa has 
been a very, very important element in those countries where 
they have been able to turn the infection rate around.
    Mr. Royce. Thank you, Ambassador.
    If it is all right with the Ranking Member, we have our 
witness on the line now from Zimbabwe and he is going to have 
to leave shortly, so if he can hear his testimony, then we can 
go back to our first panel.
    Morgan Tsvangirai is the president of the Movement for 
Democratic Change, a broad-based opposition political party 
that is running candidates in all 120 electoral districts in 
Zimbabwe's June legislative elections. The Movement for 
Democratic Change spearheaded opposition to the February 
referendum that was defeated and Mr. Tsvangirai began public 
life as a trade union leader. He was secretary-general of the 
Zimbabwe Congress of Trade Unions for 10 years and we will hear 
him via teleconferencing from Zimbabwe and we are trying to 
reconnect right now. We had him on the line a minute ago and 
lost the call, so we are replacing that call.
    Good afternoon, Morgan. This is Congressman Royce. I am 
going to ask you if you could summarize your testimony. We have 
a written copy for the record and we will now turn the floor 
over to you. Go ahead, Morgan.

    STATEMENT OF MORGAN TSVANGIRAI, PRESIDENT, MOVEMENT FOR 
                       DEMOCRATIC CHANGE

    Mr. Tsvangirai. Chairman Royce, honorable representatives 
of the House of Assembly, I really do appreciate on behalf of 
all Zimbabweans the opportunity to address you at this critical 
time in our history.
    We are set for the elections on June 24 and 25 but these 
elections have been characterized by a lot of violence 
perpetrated by the state. Thirty members, MDC supporters have 
been slain, another 30,000 have been displaced and all of them 
just for daring to support the position.
    We are a peaceful people and we hope that you will 
appreciate that our attempt to form the Movement for Democratic 
Change is an attempt to provide an alternative option to the 
20-year tyrannical rule of Robert Mugabe. Southern Africa not 
be peaceful if Zimbabwe remains the way it is.
    Despite the fact that the election process is under way, 
the government continues to change electoral legislation by 
disenfranchising thousands of young people on the voters rolls. 
The ruling party, ZANU-PF, has realized it will not win this 
election. The only way they can win this election is to stop 
people from voting in their desperate attempt to reduce voter 
turn-out and to manipulate the polls.
    Nearly all of Zimbabwe's electronic media is government-
owned and the opposition has no access to public media. They 
have no televised radio debates between the government and the 
opposition. No opposition party has access to public campaign 
finance. Only the ruling party has received that financing.
    I am certain, Mr. Chairman, that those present in the 
hearing today appreciate that in a democratic nation, those who 
are in power know that they have got privileges only at the 
will of the people and the government is there to serve the 
people. Those principles are sacrosanct to any democratic 
state.
    I do appreciate the fact that the House of 
Representatives--we appreciate the expressed solidarity that 
you have undertaken and we hope that you can work to ensure 
that these elections are free and fair. They are very critical 
elections not only for Zimbabwe but for the whole Southern 
African region.
    We in MDC appreciate the opportunity to address such a 
distinguished gathering. We hope that we, too, will 1 day know 
what it is like to be free in a country of democratic 
principles.
    Let me also emphasize the fact that the MDC is committed to 
a transparent, equitable and reasonable, sound land 
distribution policy. The current process of farm innovation, 
the degeneration of the rule of law is totally unacceptable to 
us. We are committed to the restoration of the rule of law as a 
basis of ensuring that justice again is restored in this 
country.
    Land, race and ethnicity are being used by ZANU-PF as a 
smokescreen for its own failure and we do hope that the 
international community and the House of Representatives in 
particular appreciate the magnitude of the problem here in 
Zimbabwe and hope that you can deliberate with the full 
understanding that MDC is committed to the democratic 
alternative through the ballot box and through no other means.
    I am just coming from the campaign rally where we almost 
were prevented from addressing the people. The people are 
terrified in that situation. The people are living under 
terror. 3,000 war veterans have been unleased in that community 
and this is the state of the election environment which we are 
facing in this country.
    I do appreciate your listening today. Thank you very much.
    [The prepared statement of Mr. Tsvangirai appears in the 
appendix.]
    Mr. Royce. Morgan, we appreciate very much your testimony 
and I want to defer to my colleagues and see if any of them at 
this time have any questions for you. Again I very much 
appreciate your testimony.
    Amo?
    Mr. Houghton. Mr. Tsvangirai, this is Amo Houghton. We met 
you when we were out there with Representative Dick Gephardt on 
the CODEL in December and it is good to talk to you.
    Mr. Tsvangirai. Yes.
    Mr. Houghton. Can I ask you a couple of questions. First of 
all, is your life in danger?
    Mr. Tsvangirai. I think that my life alone is--everyone is 
unsafe in this environment, from me downward--my supporters, 
myself and everyone. Me in particular because I happen to be 
the leader of the Movement for Democratic Change. Therefore, 
the question of security of myself, they target the candidates 
of MDC.
    I have a candidate here who has almost been threatened by 
the army in this country, and is almost leaving tonight to go 
outside the country because it is unsafe. It is no use to MDC 
to have dead candidates because that is just the handing all of 
the constituents to ZANU-PF.
    So you must appreciate the fact that everyone is in danger 
here.
    Mr. Houghton. If I understand it, there are going to be 
thousands of observers over there. Is that going to be 
adequate? Will they get a proper reading? Will they be able to 
help in the safety of some of the candidates? How do you feel 
about the international observers coming over?
    Mr. Tsvangirai. The international observers are well 
appreciated. Unfortunately, in their numbers, they can never 
cover the whole country.
    Right at the moment, some of the observers are not being 
accredited by this country. We have so many incidents where we 
would like to send these observers to see for themselves the 
situation in the countryside. But anyway, I think those 
observers who are in the country will go a long way to creating 
some sense of peace in certain constituencies but not in all 
constituencies.
    So I think that, in short, I would say that it is 
appreciated, their number is low, but I think their work is 
appreciated.
    Mr. Houghton. I have just one final question and before I 
ask it I want to thank you so much for your bravery and your 
courage and your willingness to stand up for that great 
country.
    One final question. What are you asking people from the 
outside to do to help you?
    Mr. Tsvangirai. I am asking them to assist and help the 
people of Zimbabwe in ensuring that we have a free and fair 
election. I mean the people of Zimbabwe, all they will need is 
to cast that vote. They know what they want to vote for. 
Unfortunately, ZANU-PF will prevent them from going to vote.
    So I think as much as possible, your efforts, like these 
hearings, like your statement, will help to draw the attention 
of this country that the international community is watching 
and that is why I am saying that in all honesty, the observers 
are an appreciated effort by the international community to try 
to ensure that at least there is a level playing field, even 
when we know that ZANU-PF is creating conditions that are not 
ideal for a free and fair election.
    Mr. Houghton. Thank you very much. Good luck to you.
    Mr. Tsvangirai. Thank you.
    Mr. Royce. Morgan, I have one last question for you. The 
no-go areas in the country where you are not allowed to 
campaign. I understand you have candidates in 120 districts, in 
all the districts, but the government has set aside certain 
areas where you are not allowed to campaign.
    How extensive are those no-go areas?
    Mr. Tsvangirai. They are extensive. They are actually 
provinces. I will tell you that in one of the provinces, that 
is Shonaland East, there are five constituencies there where I 
would say they are no-go areas. In Shonaland West I think there 
are two constituencies which I would say they are no-go areas. 
In Shonaland Central, I think there are two or three 
constituencies, again in the same situation. In the Midlands I 
think there are two constituencies that have been badly 
affected.
    So all in all, these are the areas where I would say 
certainly something like 10 to 15--I think 10 constituencies 
where we cannot campaign. Of course, they will allow us there 
but people would be so terrified that they will not dare come 
to the meetings.
    Mr. Royce. Again, Mr. Tsvangirai, I appreciate your 
testimony and take care and we will see you in the future.
    Mr. Tsvangirai. Thank you very much. I appreciate it.
    Mr. Royce. We will now return to our questioning of 
Ambassador Powell on the first panel. So I will turn to 
Congressman Meeks and Greg, do you have any questions you would 
like to ask?
    Mr. Meeks. I am sorry that I missed your testimony. I do 
not want to ask you to repeat what you said.
    I am just interested in what the SADC countries--have they 
taken an official position in this issue? I know that President 
Mugabe, for example, was talking about $14 million plan that 
was proposed by South Africa. I do not know whether that is on 
hold or not.
    So I am just trying to find out where we are with the SADC 
nations, where we are with that $14 million plan and a plan to 
try to purchase some of the land back so that we can then 
divide it up to some of the poor in the nation.
    Ms. Powell. The SADC countries have been in consultation 
with President Mugabe. There have been several meetings, 
including the SADC Forum, which is our U.S. panel with the SADC 
countries at which these issues were discussed.
    In addition to that, as you say, there was a plan to put a 
$14 million fund together in hopes of being able to acquire 
some of the land. That has been on hold, as we understand it, 
since the plans were announced to seize 804 farms without 
compensation.
    Mr. Meeks. So currently there is, I guess, since the 
announcement of the plan to seize 800 farms, there have been no 
proposals or negotiations going on of how we can try to resolve 
this matter in a peaceful manner so that elections can go on in 
a peaceful manner?
    Ms. Powell. We continue to work with the government of 
Zimbabwe, stressing the principles under which we would be able 
to restart our technical assistance. I am sure the SADC members 
have also adopted a wait-and-see attitude.
    We have determined that until free and fair elections are 
held, we would not resume our assistance on the land reform 
issue.
    In addition to that, I should add that SADC has also put 
forward an observation team for the elections. The 
parliamentary group will have an observation team.
    Mr. Royce. Thank you. We will now go to Mr. Tancredo.
    Mr. Tancredo. No questions.
    Mr. Royce. No questions from Mr. Tancredo.
    Congresswoman Lee?
    Ms. Lee. No questions.
    Mr. Royce. No questions.
    That completes our first panel. Ambassador, thank you very 
much.
    Mr. Hastings?
    Mr. Hastings. Mr. Chairman, I appreciate it. I apologize to 
the Committee and to the Ambassador. We had the defense 
minister from Gabon and we are trying to shuttle back and 
forth.
    I really want to know where our leverage is with reference 
to the International Monetary Fund and the World Bank and 
places like that.
    As I read your testimony before us, your written testimony, 
Madam Ambassador, you seem to place emphasis on the fact that 
if there is no credible election June 24-25, whenever, that we 
are not going to--or we are going to undertake to do something 
in this sphere of how we go about dealing with monetary 
undertakings with Zimbabwe.
    I guess my concern is it seems like we wait with our 
leverage and then, after the bad things happen, our leverage 
does not count. I may not be making sense but where is our 
leverage? I am not talking about NDI and monitors. What can we 
do?
    Ben and I filed that resolution and I told him, his staff, 
when we filed it, resolutions are just a whole bunch of words. 
Nobody in Zimbabwe gives a damn about us filing a resolution. 
So what can we really do, is what I want to know.
    Ms. Powell. Let me address this in a couple of ways. Last 
October, the IMF and World Bank suspended programs for Zimbabwe 
on the basis, for the IMF, of Zimbabwe not having complied with 
the requirements of the program that they had in place.
    The World Bank has also decided that it will not disperse 
additional money, although some current programs are 
continuing. They will wait until the IMF issues are sorted out 
and that Zimbabwe has come back to the IMF program that it 
started.
    As I pointed out in the testimony, the economic conditions 
continue to decline. Unemployment is at a very, very high rate, 
inflation at 70 percent, and the fuel shortages and other 
shortages are beginning to have a very serious impact on 
people. I am told that it is one of the major issues of the 
elections. People try to deal with the economic issues 
confronting them.
    So we would need to continue as the international community 
to engage with Zimbabwe on economic issues after the elections 
are over. Land reform is one of the economic issues but it is 
not the only issue. There are certainly reforms that need to 
take place to get back on the IMF program.
    I believe that all of us in the United States are looking 
for those ways in which we can maximize our influence with 
Zimbabwe and encourage it to observe the rule of law to allow 
its civil society and its political groups to move forward, but 
as positively as they can through this election period, to 
include a very viable parliament as a result of this election.
    I think your words and those of others that will be 
testifying today are very important that the people of Zimbabwe 
know that the international community and particularly the 
United States cares about their election and how it is 
conducted and is very concerned that it be conducted in a free 
and transparent manner and I do appreciate----
    Mr. Hastings. Ambassador, while words help, the gentleman 
that was on the teleconference, I am sure that something like 
that, a resolution, reaches him and maybe somebody in the 
population but the person that counts in this kind of 
controlled environment would be Mugabe and I maintain that he 
does not care one whit about what we are doing. Unless we 
exercise some stronger measures, then nothing is going to 
transpire that is going to be positive with reference to the 
kind of leadership that he has demonstrated over time.
    My other question and my final one, Mr. Chairman, I guess 
goes to the British embargo with reference to arms I do not 
know, did you discuss already the arms embargo that the Brits 
have and the fact that it appears that some small arms have 
been sold by China to Zimbabwe? What were we doing? What was 
our intercession, if any, with reference to all of that?
    Thank you, Mr. Chairman.
    Ms. Powell. The British embargo was a unilateral action 
taken by the British. We certainly can look at that measure and 
its effectiveness, particularly if the election does not go 
well.
    I do not have a full report on the reference that you are 
making to the arms shipment, but we will try to get more 
information and share that with you.
    [The response to questions appears in the appendix.]
    Mr. Chairman, one of the Members asked about the two Cuban 
doctors. Would it be possible for me to respond just briefly to 
that?
    Mr. Royce. Certainly, and then we are going to go to Mr. 
Payne for his questioning and then to Congresswoman Barbara 
Lee.
    Go ahead, Ambassador.
    Ms. Powell. UNHCR has had access to the two doctors. They 
have confirmed that their health and other conditions are fine. 
They are being held in protective custody in conditions that 
meet international standards.
    We are working with UNHCR, certainly with the government of 
Zimbabwe, to ensure that the government meets its obligations 
under the handling of refugees and we will be continuing those 
efforts to get the release of these two doctors from Zimbabwe.
    Mr. Royce. Thank you very much, Ambassador.
    We will now go to Mr. Payne.
    Mr. Payne. Thank you.
    I have met with some of the opposition leaders and they 
seem to be fairly well organized, I see this in the work of IRI 
and NDI. How would you assess the opposition in their 
organization and their ability to get their program 
established?
    Ms. Powell. As was stated, the MDC is the largest group and 
it is a relatively new group. It has been built by many of the 
followers of the labor union movement and they have had a very 
good grassroots organization as a result of that and been able 
to reach out through the country. They have aspired to have a 
very nonviolent campaign, to look at issues, particularly of 
dealing with the economy, and they have been, with the 
exception of the no-go constituencies that Mr. Tsvangirai 
talked about, they have been able to have a very vigorous 
campaign, although certainly many of their members have been 
intimidated, they have had their cards taken from them, they 
have been forced to recant their membership, and there has been 
a degree of intimidation that has been unprecedented.
    But they have also provided perhaps the first real 
opposition to the ZANU-PF in 20 years since independence.
    Mr. Payne. To your knowledge, with regard to the HIV virus 
and AIDS, is it more prominent in cities or in the rural 
communities?
    Ms. Powell. Mr. Payne, I am sorry; I do not know the 
answer. I will have to find out. In general, it has been an 
urban phenomenon but I am not sure in Zimbabwe.
    [Further response appears in the appendix.]
    Mr. Payne. Since we are running behind, I will just hold my 
other questions.
    I would like to say that when Zimbabwe became independent, 
the big emphasis was on education and health, and Mr. Mugabe 
and his government did an outstanding job in education, 
probably the best job done in any African country.
    Unfortunately, the economy never caught up to the educated 
individuals and therefore created unrest by virtue of the fact 
that you do an outstanding job in educating your population and 
then there is no place for them to go and seek employment. So 
that was, I guess, one of the beginnings of the downfall of the 
system there in Zimbabwe.
    But I do feel that, and I will ask some of the other 
speakers, I do feel that we did not--that the whole Lancaster 
question, although we get different versions of what was 
supposed to happen, but I think that is certainly part of the 
problem that we find today because of what was not done at the 
time when those agreements were made.
    Just finally, I think that--I wish my colleague from Cuba 
was still here because I have often commended the Cuban 
government for the outstanding job that they have done around 
the world by the fact of having an excellent educational system 
there and providing a number of doctors throughout the world, 
in particularly in the Third World. Had it not been for the 
Cuban government, many countries in Africa would even be 
suffering more with the lack of medical attention.
    So I hope that this question is resolved with these two 
doctors but I think that they have done a great humanitarian 
service to the Third World, from Cuba. Thank you.
    Mr. Royce. Thank you, Mr. Payne.
    We will now go to Congresswoman Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Let me just ask a couple of questions. Of course, land 
reform was central in the independence struggle with regard to 
the former Rhodesia and now it is central in the elections.
    I am wondering what the United States' role has been in 
terms of our foreign policy as it relates to land reform during 
this period. Also in terms of donor help, has the United States 
or is it helping in this effort?
    I am still not clear on where we have been since 
independence until now.
    Ms. Powell. As you say, it has been a historical problem 
that they have been dealing with. There have been 90,000 
families that have been resettled on land that has been 
acquired in a willing buyer/willing seller format over the last 
20 years.
    In 1998, the recognition was made among the donor community 
that not enough had been done to address this question. The 
donor community and the government of Zimbabwe negotiated and 
agreed upon some principles which again continued the willing 
seller/willing buyer format.
    They also tried to streamline some of the ownership 
requirements and the registration of property. They tried to 
ensure that women could own property and some of the farmland. 
They also tried to incorporate an element of poverty 
alleviation to the program, in addition to trying to make it 
very transparent.
    The U.S. role in support of this was to provide expertise 
from the University of Wisconsin's Land Center. That program 
was continued up until March of this year when we had to 
suspend it as a result of the actions by the government of 
Zimbabwe.
    We would like to provide that support. We think the issue 
is a real one and one that needs to be addressed, but only 
after the elections have been free and fair.
    Ms. Lee. But let me just ask you, though, in terms of the 
importance of land reform, have we ever just said, as part of 
our foreign policy, ``Do it; it is important; it is critical. 
If you do not do it, things could blow up at some point''?
    Ms. Powell. We have not. We have included it in our efforts 
to address economic reforms and clearly if there is not a 
solution to this effort under the economic reform program, 
Zimbabwe is not going to be able to attract investment, not 
going to be able to move the agricultural economy forward. It 
has also been an important part of that, but it has not been, 
as you say, a sine qua non for continuing the aid program.
    Ms. Lee. May I ask one more question?
    Let me just ask you with regard to the HIV/AIDS crisis in 
Zimbabwe, which is devastating the country--it is another part 
of this overall security issue?
    First, based on some of the numbers we have, 26 percent of 
working adults tested positive for HIV/AIDS. 240 out of 340 
people die of AIDS-related diseases each day. I know a large 
percentage of the military is infected, also, in Zimbabwe.
    Now, when President Mugabe sought to establish an AIDS 
levy, there was major opposition--of course, from the labor 
unions and other segments of the society. Primarily, I believe 
the reason was the overtaxation already.
    What have you found to be the case in Zimbabwe and how has 
the national government addressed it as a priority, short of 
this levy that has not been able to be, I guess, enacted at 
this point?
    Ms. Powell. You are quite right. It has not been enacted.
    The government is taking a slightly more proactive stance 
on AIDS, recognizing particularly its devastating impact on 
individual families and particularly children, the impact that 
it will have eventually on the work force and the economy. But, 
as I mentioned earlier, we are still looking for much more 
leadership from the central government. We consider this to be 
a vital element of any government's attack on HIV/AIDS. There 
must be central leadership in order to attack this and to make 
people aware of the problem and what is being done.
    Ms. Lee. Thank you, Mr. Chairman.
    Mr. Royce. Thank you.
    That completes our first panel but in summing up, I would 
ask that the administration be prepared to make a hard-nosed 
call on this election. I think there is no room for allowing a 
fudging of this election. So I thank you very much, Ambassador 
Powell, for your testimony here today.
    For our second panel we are going to hear from Ambassador 
Chester Crocker. He is the James Schlesinger Professor of 
Strategic Studies at the Georgetown University School of 
Foreign Service. He served as assistant secretary of state for 
African affairs from 1981 to 1989 and developed the diplomatic 
strategy that led to the signing of the landmark New York 
Accord. Dr. Crocker did undergraduate studies at Ohio State 
University and earned his masters and his Ph.D. at Johns 
Hopkins.
    Dr. Crocker may have to leave us early, so we appreciate 
his testimony and we are going to ask him to go first.
    Before we do that, we are just going to introduce Patrick 
Merloe, responsible for directing the National Democratic 
Institute and their electoral programs, including 
constitutional and law reform projects. He is involved in NDI 
programs related to the rule of law, public policy advocacy, 
and citizen participation activities. Mr. Merloe's program 
activities in the last year have involved him in Africa, Asia 
and throughout the world. Mr. Merloe did his undergraduate 
studies at Temple University and is a graduate of the 
University of Pennsylvania Law School and we will hear from him 
second.
    Then we will hear from Lloyd Pierson, director of the 
Africa Division at the International Republican Institute. He 
was previously an associate director of the Peace Corps and 
also served as a Peace Corps country director in Ghana, 
Botswana and Namibia. Mr. Pierson earned a B.A. in 
international relations at the University of Houston and did 
graduate studies in law and public administration.
    He is no stranger to Capitol Hill, having worked as staff 
associate and administrative assistant. He has also appeared 
before this Subcommittee previously.
    So we will now go to Ambassador Crocker.

  STATEMENTS OF CHESTER CROCKER, PROFESSOR, INSTITUTE FOR THE 
           STUDY OF DIPLOMACY, GEORGETOWN UNIVERSITY

    Mr. Crocker. Thank you very much, Chairman Royce. Good to 
be back here with you and your colleagues.
    There has been a lot said about the trends and the facts on 
the ground and there is a lot more that will be said by 
colleagues on this panel and I do not want to spend a lot of 
time on that, maybe focus a little bit more on what we can do, 
what realistically are the options that we face. But just a few 
observations, and I have given you a written statement, as 
well, but just a few observations on the trend lines.
    I have been a frequent visitor to Zimbabwe for the past 33 
years and first went there at a time when it was also a 
troubled country, in the midst of its liberation struggle 
against minority rule, and I have been many times since.
    Zimbabwe has often seemed a troubled place. Right after 
independence there was a period of real troubles when many 
people lost their lives. ZANU-PF was consolidating its monopoly 
of political control.
    So we have often seen Zimbabwe as a place, I think, where 
there were the trappings of a democratic system but behind that 
facade, if you will, there was the arbitrary use of official 
power, as much official power as was needed to maintain a 
monopoly of control, an uneven playing field for opposition and 
resort to the tactics of intimidation.
    But until the late 1990's, and is my first point that I 
would like to underscore, Mr. Chairman, these practices 
remained within certain limits, maybe, in part, because only 
recently has the opposition really found its feet. But in any 
case, I think we are seeing quite a different situation today 
in terms of the patterns of intimidation and abuse.
    This is a dramatic situation now in Zimbabwe. We are 10 
days away from one of the most important elections in modern 
African history. As has been noted, the opposition will run in 
every constituency. Thousands of observers will be there from a 
wide range of local and foreign institutions.
    There is excitement in the air in the country politically 
because the constitutional referendum process demonstrated that 
there really is competition in Zimbabwe. At least there is 
competition when it is permitted.
    The upcoming election is taking place against a widespread 
campaign of government-sanctioned and sponsored violence whose 
dimensions, I think, are generally pretty well known.
    I would like to underscore something you said, Mr. 
Chairman. One stands in awe at the courage and conviction of 
unarmed oppositionists who are trying to compete in the 
political process against a government which is playing by 
other rules, other rules altogether, and these leaders in the 
opposition have come together from a wide range of 
backgrounds--the union movement, the educational profession, 
the law, journalism, human rights advocacy, women's groups, and 
so forth, united in the belief that it is possible for Zimbabwe 
to have peaceful, democratic change. Yet we know how much of an 
uphill struggle this is.
    This need not have happened in Zimbabwe. Zimbabwe is a 
place, Mr. Chairman, which has many things going for it in 
terms of its resources, human and physical, in terms of the 
strength of its industrial economy, its commercial agriculture, 
which, until recently, has been a key source of regional 
dynamism, making Zimbabwe a significant commodity and food 
exporter and a key economic partner for all the countries of 
Southern Africa.
    I would also say that the leadership in Zimbabwe over the 
years has not been all on the negative side. This is not a 
country which has been for the last 20 years governed the way 
it is being governed today.
    Something has cracked. Something has gone wrong. Something 
has gone badly off the tracks. This is a government which, at 
times in the past, has been a constructive member of a regional 
community. No longer. No longer the case.
    So those legacies have gone out the window and Zimbabwe's 
policies of the past of pragmatism and reconciliation and 
regional cooperation have been replaced by the political of 
greedy adventurism in the region, most notably in the Congo, 
and the politics of envy and racial scapegoating at home.
    The real problem, no matter what the government officials 
may say, the real problems are of their own making. This is not 
about land ownership. It is not about colonial legacies. It is 
not about the role of white farmers. It is about power. It is 
really about power and that is the long and the short of it. 
The primary challenge in terms of power is coming from black 
Zimbabweans and I think we have heard that already this morning 
from Morgan Tsvangirai and his colleagues. Everything else is 
pure cover story--the playing of racial cards by an embattled 
regime.
    The sad part of all this to me, Mr. Chairman, is that this 
is not the way Robert Mugabe started out his political career. 
It is not the way he was for much of the past 20 years. He has 
made contributions to his country's history and that of the 
region. While I have often differed with him, I have respected 
him as a man of substance, intelligence, and deep conviction. 
It is very sad to witness his fears of losing office crowd out 
those other qualities.
    So we have a drama. This could be an implosion with broad 
regional implications far beyond those of Zimbabwe. Zimbabwe 
affects an entire region. It is at the hub of an entire region. 
It is the Southern African region's second most important 
player in many ways, both political and economic.
    So I think we have a lot at stake. This is about our 
principles and our interests in Zimbabwe, but it is also about 
Africa and Southern Africa quite specifically.
    Just to give one example, the South African currency has 
gone down 10 to 15 percent in the past few months because of 
Zimbabwe. It is as simple as that and there is no other 
explanation for the performance of the rand. I know there are 
people who try to give other explanations but that is my 
explanation.
    What are we doing about it? My impression is that we are 
wringing our hands. We are hoping South Africans will rescue 
the situation. We are doing what we can to strengthen the 
democratic process and I applaud everything that we are doing 
as a government--executive branch, Congress, and NGO's, which 
are playing the lead role--to try somehow and make this as 
democratic an election as it can be. But we are not doing a 
whole lot beyond that to shape events, either by ourselves or 
with our partners in Africa and Europe. I would suggest to you 
that things have deteriorated badly. There are not any really 
attractive options left before us.
    But there are two broad avenues we could consider. Of 
course, we do not know how the election will come out. It is 
possible that the election will come out better than we think, 
that the playing field will be more level than we think, and 
that the opposition will come out better than the worst case 
analyses have led us to believe. It is possible and we do not 
want to prejudge that result.
    It may also be that the opposition would be very pleased, 
thank you very much, if they win 50 seats, even if they know in 
their heart of hearts that they could have won 90 and therefore 
they will say, ``Look, is the glass half empty or is it half 
full?'' We have to be a little careful, I think, in deciding 
ahead of time what is an acceptable outcome because it is for 
the people of Zimbabwe even in these difficult circumstances to 
address that.
    But I am not going to bet on an outcome as good as the one 
I have just been talking about. If I were a betting man, I 
would not bet on that kind of outcome. I would bet this 
election is going to go south and that it is going to be 
substantially robbed. I am afraid that is the case. I wish it 
were not the case.
    So under one scenario, if that is indeed what happens, we 
have the possibility, I suppose, assuming that violent 
intimidation and police state tactics work, of deciding, ``Do 
we engage with this leadership, warts and all, or not?'' And by 
engage, I do not mean writing checks for them. I mean using 
every element of our actual and potential leverage to try to 
pull them back from the edge of this self-destructive orgy they 
are now in, and that will not be easy to do and it will not be 
pretty to watch, but I think we do have leverage we have not 
really used that perhaps could get through in a post-election 
environment. The goal would be to salvage a regionally 
dangerous situation and move the country's leadership back 
within the pale of minimally acceptable conduct.
    This will not be easy, given our political values and our 
deep commitment to those values, to engage with a group like 
this, but it might be better to do that than to resort to the 
kind of petulant self-isolating ostracism which we are all too 
frequently applying around the world today and isolating 
ourselves.
    The second option, and I speak very candidly, is to work 
through all appropriate channels for a change in power in 
Zimbabwe, recognizing that perhaps it is destined to become 
Africa's Romania and that Mugabe is destined to become Africa's 
Ceausescu. It was, though, even in Romania, the people of 
Romania who made the change ultimately, not Americans.
    So if we were to decide to try and work for change in power 
in Zimbabwe, I would hope that we would have the wisdom to be 
discrete, to be low-key and to avoid giving those in power 
there the excuse that foreigners are out to get them.
    We would treat Zimbabwe basically like a pariah under this 
option. We would disengage from official government-to-
government relationships, programming of any sort, and wait for 
the pressures to mount, helping them along as best we can.
    Under either approach, we must recognize that we are only 
one country and that we should be in careful, practical and 
detailed consultations with the South Africans, with the 
Zambians, with the Mozambiquans and above all, with the 
British, who know this place and have more influence there than 
we do.
    So I hope that our current penchant around the world for 
what I would call sloppy unilateralism can be brought under 
some semblance of control and that we can actually figure out 
how to work with key players in the region who also have 
interests at stake in Zimbabwe. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Crocker appears in the 
appendix.]
    Mr. Royce. I thank you, Ambassador Crocker.
    We will now go to Mr. Merloe.

STATEMENT OF PAT MERLOE, DIRECTOR OF PROGRAMS ON ELECTIONS AND 
       POLITICAL PROCESSES, NATIONAL DEMOCRATIC INSTITUTE

    Mr. Merloe. Thank you, Chairman Royce, Members of the 
Subcommittee, for this opportunity to comment on the troubled 
election and political processes that are surrounding the June 
24-25 balloting in Zimbabwe.
    Mr. Chairman, I would like to thank you for your opening 
comments in today's hearing. They were quite incisive and I can 
associate myself closely with them.
    I will briefly summarize for you my prepared statement. 
Zimbabwe is a pivotal country in Southern Africa and its 
democratic development is of exceptional importance to Africa 
and beyond. The international community supported the people of 
Zimbabwe in their quest for independence and majority rule. 
Today people around the world continue to support those 
striving in Zimbabwe to promote democracy, the rule of law, and 
human rights.
    Zimbabwe's parliamentary elections, to be held in less than 
2 weeks, present a critical test for the country's democratic 
development. The National Democratic Institute for 
International Affairs, NDI, received requests from a variety of 
Zimbabwean political and civic leaders to monitor the electoral 
developments. NDI has been working in Zimbabwe since February 
1999, through support from the National Endowment for Democracy 
and the U.S. Agency for International Development.
    The goal of this work has been to promote dialogue among 
all of the major political parties in order to reach a common 
understanding of the basic aspects of electoral reform needed 
to hold credible elections.
    As part of this work, we have taken leaders from civil 
society, political parties and electoral authorities to witness 
electoral developments in other countries where competitive 
elections have been held, including South Africa and 
Mozambique. On February 4 and 5 of this year, we sponsored a 
roundtable with leaders of all of the major political parties 
in Zimbabwe where they discussed and then drafted a code of 
conduct for the parliamentary elections. Subsequently, all of 
the political parties except for ZANU-PF have adopted that code 
of conduct.
    We also turned to a phase of training the trainers for poll 
watchers for the political parties in that country. 720 of them 
across the 10 provinces of Zimbabwe have been trained in order, 
again, to try to bring some semblance of peace and civility 
into the electoral process.
    It is in this context that we received requests to observe 
the election and working in close cooperation with the 
International Republican Institute and other international and 
domestic election observer groups, we decided to observe the 
elections.
    NDI then organized a multi-national preelection delegation 
that visited Zimbabwe from the 15th to the 22nd of May. I was a 
member of that delegation, which was led by the Honorable Alex 
Ekwueme, former vice president of Nigeria from 1979 to 1983 
under that country's civilian government. It included members 
of parliament from neighboring Mozambique, from also Namibia, 
from Kenya, from Canada. We received technical advice from the 
chief election officer from South Africa, as well as from our 
Southern Africa team.
    Since that time, NDI has maintained an in-country staff and 
added a 10-person long-term observer group that has been 
deployed around the country and that has been developing 
reports and information. There will be a report from that group 
that will be finished by the end of this week, copies of which 
will be provided to the Subcommittee.
    Mr. Chairman and Members of the Subcommittee, you were 
supplied a copy of NDI's preelection delegation 17-page 
statement which was issued on May 22 in Harare. It also has 
been included as an appendix to my prepared statement.
    That delegation concluded that the conditions for credible 
democratic elections did not exist at that time. Regrettably, 
conditions for credible democratic elections still have not 
been established in Zimbabwe. The effects of violence and 
attempts at political intimidation have undermined trust among 
many Zimbabweans in the secrecy of the ballot and have raised 
fears of retribution for voting against the ruling political 
party.
    These factors could affect the voters' decisions about 
whether to vote and for whom to vote on June 24 and June 25. 
Political violence since Zimbabwe's February 2000 referendum 
has restricted the exercise of freedoms of opinion, expression, 
association, assembly and movement, as well as the right to be 
secure from physical harm due to political affiliation. The 
abilities of political parties and many candidates, 
predominantly from the opposition, to campaign openly and 
freely do not meet international standards for electoral 
competition.
    The election conditions fail to meet requirements contained 
in the declaration of rights in Zimbabwe's constitution and 
electoral standards based upon international instruments, such 
as the Universal Declaration of Human Rights and the African 
Charter on Human and People's Rights, which are applicable to 
Zimbabwe.
    The level of violations of civil and political rights in 
Zimbabwe's election context led Amnesty International on June 6 
to issue a report entitled ``Zimbabwe: Terror Tactics in the 
Run-Up to the Parliamentary Elections, June 2000.'' I provided 
copies of that report to the Subcommittee and I would like to 
quote for you just two sentences from the first page of Amnesty 
International's report.
    ``Amnesty International has concluded from its 
inquiries''--their team in Zimbabwe--``that there is evidence 
that the government of Zimbabwe is either instigating or 
acquiescing in various violations of human rights, including 
extrajudicial executions, torture, and other cruel, inhuman or 
degrading treatment or punishment. There appears to be a 
deliberate and well thought out plan of systematic human rights 
violations, with a clear strategy constituting state-sponsored 
terror in the run-up to the June elections.''
     Although political violence appears to have diminished 
somewhat during the past month, it continues at tragically high 
levels. An atmosphere of fear still prevails over much of the 
country. While supporters of the ruling party, ZANU-PF, and of 
the opposition parties have been victims of political violence, 
the overwhelming predominance has concerned supporters of the 
opposition.
    Mr. Chairman, while Zimbabwe's election authorities have 
demonstrated in the past an ability to organize the 
administrative aspects of elections, there are serious problems 
in the legal framework for elections and election 
administration, as well. Should the violence cease, electoral 
problems will come to the fore.
    There was a consensus, for example, across the political 
spectrum that an independent election commission was required 
to organize credible elections. Following the defeat of the 
referendum, the elections were called, however, without 
instituting that electoral reform.
    Critical problems concerning a level playing field have 
also been identified. There is heavy news bias favoring the 
political party that is in power. The qualification 
requirements for state funding result in only one party, ZANU-
PF, receiving such funding. New voters rolls, which have been 
created----
    Mr. Houghton. Would you please summarize?
    Mr. Merloe. Yes, I am coming to a conclusion, thank you. 
The new voter rolls also provide concern that there may be 
disenfranchisement on the 24th and 25th of June.
    Mr. Chairman, there also have been problems concerning 
election observers, which my colleague Lloyd Pierson will 
address, that have affected the plans of NDI and IRI. But 
despite these and other obstacles that are serious, as we have 
seen, political parties in the opposition and civic and 
religious leaders have been mobilizing to participate in the 
electoral process and to monitor it.
    International experience has demonstrated that in countries 
like Zimbabwe where violence and fear undermine credibility, it 
is necessary for the government to take extraordinary steps to 
win the confidence for there to be a meaningful election that 
can be accepted by the opposition, ruling party, and the 
citizenry alike. It is unfortunate that such efforts have not 
been made in Zimbabwe. It is hoped that responsible authorities 
will take swift action in the 11 days that remain.
    It is unfortunate, however, that in 11 days remaining 
before the election, there is not really time or the 
opportunity to discuss a level playing field. That question is 
settled. We hope that there can be nonetheless a peaceful and 
orderly election that takes place and that political violence 
will stop and there will not be retributions in the post-
election period. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Merloe appears in the 
appendix.]
    Mr. Royce. Thank you, Mr. Merloe.
    Now we will go to Mr. Pierson.

   STATEMENT OF LLOYD PIERSON, REGIONAL DIRECTOR FOR AFRICA, 
               INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Pierson. Thank you very much, Mr. Chairman. I would 
like to, in the beginning, say a particular thanks and 
appreciation to you and Congressman Payne and the other Members 
of this Committee for all of your outstanding support for 
democracy and governance programs and particularly for this 
hearing focussing on Zimbabwe.
    Mr. Chairman, Members of the Subcommittee, thank you for 
the opportunity to appear here today and comment on one of the 
most powerful democratic reform movements currently under way, 
not only in Africa but in the world. A courageous coalition of 
political parties, trade unions, civil society groups, 
religious organizations and what appears to be an overwhelming 
percentage of the Zimbabwe people are sending a very strong 
message that a desperate authoritarian regime will not last.
    For those of us who have a longstanding deep affection for 
Zimbabwe, for those who recognize the talents, work ethics and 
values of most Zimbabweans, for those who know that democracy 
has won the intellectual battle as the best political system to 
guarantee open and transparent government and protect 
individual liberties, for those who cherish life, liberty and 
pursuit of happiness and believe that government should be of, 
for and by the people, current events in Zimbabwe are very 
painful.
    The present government of Zimbabwe began its journey in 
1980 with great hope. Many currently in the opposition were 
originally a part of ZANU-PF, the majority party, or considered 
themselves in partnership to foster a peaceful transition from 
Rhodesian colonial rule. Education and health care facilities 
were improved. Land reform was and continues to be considered a 
necessity by virtually all Zimbabweans.
    After 20 years in power, the government has lost its way. 
Democracy and good governance have been shoved aside for power 
and control. Due process, free speech, rule of law, freedom of 
the press and the right to assembly are not only under attack 
by the government; it is the Mugabe government that clearly 
ignores rulings of the judicial branch and suppresses its own 
people.
    Mr. Chairman, a very strong Sense of the House Resolution 
has been introduced in the U.S. House of Representatives. I 
might comment that when Mr. Hastings was making a statement and 
some questions to Assistant Secretary Powell, he brought up the 
need for very tough measures concerning Zimbabwe and we agree 
with that and he brought up the Sense of the House Resolution.
    The Sense of the House Resolution really had its origins, 
Mr. Chairman, in early March in a meeting in your office with 
the reform delegation members who came from Zimbabwe. The 
impact of that Sense of the House Resolution in no way should 
be underestimated. While many Sense of the House Resolutions 
may, in fact, be routine or a matter of course, that Sense of 
the House Resolution had a major impact in Zimbabwe.
    I might have to check my chronology on it but I believe 
that that statement was the first major statement from any U.S. 
part, executive branch or the legislative branch or any 
organization, that really dealt with the violence, the 
intimidation, the harassment in this troubled preelection 
period and rule of law in Zimbabwe. You, Mr. Gilman, Mr. 
Hastings and others were among the Members of Congress that 
have strongly supported that resolution. Very strong 
legislation regarding Zimbabwe has been introduced in the 
Senate.
    In Zimbabwe we have seen and believe that the opportunity 
genuinely exists for an open, transparent government. IRI's 
interest is in the development of a multi-party system and a 
government that is for the people, not for itself.
    I want to also stress that the democratic reform movement 
in Zimbabwe is being led and supported by the people of 
Zimbabwe, not external organizations. The democratic reform 
movement will continue with or without IRI or any other 
international assistance. There should be no mistake about 
that. We can, however, have an impact by showing our support 
for democracy and good governance.
    The stakes are very high in this election. The 
parliamentary elections on June 24 and 25 are for 120 seats. 
The parliament, the National Assembly, actually has 150 seats. 
Thirty of those are named by the president of the country. Of 
the 120 seats, and each individual runs in what is called a 
constituency, which is similar to our congressional district, 
of the 120 seats currently in the parliament, 117 of those are 
from the majority party. Based on statistical analysis of the 
February 12 referendum and what the opposition sees as their 
opportunity in this election, they have estimated that as much 
as 100 of those seats in the June 24-25 balloting could go to 
the opposition.
    As you are aware, Mr. Chairman, the International 
Republican Institute at this time has a commitment to send an 
international observer delegation to these elections. We 
already have six observers on the ground. There is an 
accreditation problem. We do not know at this time if the 
observers who we have presently in Zimbabwe or this delegation 
is going to be accredited. There are innumerable number of 
problems and difficulties that we are having.
    Shortly before this hearing began, I talked with our 
resident director in Zimbabwe who had just returned from a 
meeting at the United States Embassy. The process for 
accreditation of IRI and NDI over the past several weeks has 
changed virtually daily. The latest requirement is that no 
nongovernment organization from the United States will be 
accredited as an observer mission.
    The deputy chief of mission of the State Department met 
today at the Foreign Ministry in Zimbabwe and was advised that 
the only delegation that would be accredited from the United 
States would be an official delegation from the U.S. Embassy, 
that no nongovernment organization not going through the U.S. 
Embassy would be accredited.
    We have a commitment, we have a very strong commitment to 
observe and monitor these elections and we intend to abide by 
that but I do want you, Mr. Chairman, to know that there is a 
serious problem right now and we have to--I did mention to 
Assistant Secretary Powell shortly before her testimony, she is 
aware of this requirement. They are verifying it and we will do 
other verification today.
    Mr. Chairman, that concludes my testimony but I did want 
you to know that there is a serious problem with the 
accreditation.
    [The prepared statement of Mr. Pierson appears in the 
appendix.]
    Mr. Royce. Mr. Pierson, thank you very much. I thank you 
all for your testimony.
    I guess I would turn to Ambassador Crocker at this point 
and ask the Ambassador--I noticed he was reflecting on your 
comments and on Mr. Merloe's. What advice, Ambassador, would 
you give NDI at this point and IRI and what advice would you 
give us with that new information that we just heard?
    Mr. Crocker. Chairman Royce, that is interesting and new 
information. There is obviously a very elaborate political 
process of accreditation under way and I gather numbers like 
thousands of observers are being mentioned. I do not have a 
precise number to put on it.
    My recommendation would be to our executive branch and the 
State Department that we ought to see to it that no foreign 
government can conduct itself that way because we are going to 
make IRI and NDI part of our official delegation. That is what 
I would do. I would turn it right back around on itself.
    Mr. Royce. I see. That is an interesting approach. I am 
glad I asked that. I think that----
    Mr. Pierson. I do not know if NDI and IRI want to be 
embraced as part of the official delegation.
    Mr. Royce. That is true; we should ask them. But we will 
continue this dialogue actually after the hearing and Mr. 
Merloe, I will talk with you and Mr. Pierson at that time.
    Of course, much of your focus, Ambassador, was on what we 
could do multilaterally. Tell us what some of our multilateral 
options would be if the administration could work in tandem 
right now. I know we had a meeting here with President Mbeki. 
He was very concerned. I know worldwide there is a great deal 
of apprehension about what is going on. What do you think 
multilaterally could be done at this time, in the next 2 weeks 
and then after?
    Mr. Crocker. I am glad you mentioned the South Africans, 
Mr. Chairman, because they are very central. Pressures from the 
outside world which are not fully supported and focussed by the 
South Africans will be highly diluted by the time they get to 
Zimbabwe. This is a landlocked country which depends on its 
maritime coastal neighbors, principally Mozambique and South 
Africa. As we now from the history, going back to the bad years 
of Ian Smith, it was the same back then and if the South 
Africans were on another sheet of music, it did not work.
    So we have to work closely with the South Africans and it 
would be helpful, I think, if our legislative bodies in both 
countries could be seen to be on the same page and our 
executive branches on the same page.
    I am glad to hear what you said, Mr. Chairman, about 
President Mbeki's stance. The trouble is sometimes there are a 
variety of messages coming from South Africa about the election 
that is coming up and that, I think, has complicated things.
    But this situation in Zimbabwe is having a dire effect on 
the South African economy. It is a direct threat to the 
prospects for investment throughout Southern Africa and I think 
we start with our friends in the region.
    Second, Mr. Chairman, I would point to the role of the 
international financial agencies, which we and our industrial 
allies basically can shape their decisions, both positively and 
negatively. There has been some focus previously this morning 
on what we could suspend and cutoff and, of course, there are 
things that are in suspense already. There are not a lot of 
resources, if any, flowing from the IFI's to Zimbabwe today.
    But looking to the future, there might come a time when we 
would like to be able to describe a positive, significant, 
substantial package for Zimbabwe under different conditions and 
we can also help to orchestrate that because these are clubs 
and institutions whose keys we control, to be quite blunt about 
it, and I think we can use that leverage effectively, more 
effectively perhaps than we have.
    Third, I would go back to my point about our British allies 
and the Commonwealth. The Commonwealth is an important 
institution for Zimbabwe. The Commonwealth is a very 
significant part of Zimbabwe's international relationships. But 
we are not a member of the Commonwealth and are not applying to 
join, to my knowledge, so that suggests that maybe we should be 
talking more closely and more operationally than we are with 
the British about what could be done. The British have very 
substantial influence and knowledge of the place, so I think we 
should be working together, both on immediate operational 
questions like land reform packages and on longer-term issues, 
like what do we do with this government going forward?
    Mr. Royce. Thank you, Ambassador.
    Colin Powell and I chaired an election observer team a year 
ago in Nigeria where I worked with Mr. Pierson, IRI, NDI, and 
Don Payne worked us, our Ranking Member, in that trip to 
Nigeria for the election and that election was a step toward 
full democracy in Nigeria.
    The NDI and IRI have observed many elections throughout the 
world and one of the questions I would ask is in what instances 
have you declared an election unacceptable? Have you done that 
in the past? What were those instances? I would just be 
interested in hearing that. Mr. Merloe?
    Mr. Merloe. Thank you, Mr. Chairman. Yes, indeed there have 
been instances in the past where elections have been declared 
by IRI, ourselves and others, to be unacceptable. We are 
staring at that situation right now in Zimbabwe, to be frank 
with you, sir. The preelectoral conditions are critical to 
examining any election process and by all standards, Zimbabwe's 
preelection environment has failed.
    The use of the media, the qualification of only one party 
for state funding, the situation of violence and intimidation 
that has restricted the ability to campaign and has intimidated 
citizens who make up the electorate, these are conditions that 
weigh very heavily. Even if election day itself is calm and 
goes well, we may be in a position where we will not be able to 
say that the will of the electorate, which provides the 
authority of government, has been expressed. I think it is a 
very grave circumstance that we look at in Zimbabwe, sir.
    Mr. Royce. Thank you, Mr. Merloe.
    Mr. Pierson?
    Mr. Pierson. Mr. Chairman, there have been instances in 
which IRI and NDI individually and also jointly have said that 
an election in a particular country did not meet international 
standards, was not a credible election.
    Our commitment in Zimbabwe is to observe the entire process 
before we make a final statement but it is certainly headed in 
that direction in which we would make a very direct, 
straightforward statement relating to the intimidation, the 
harassment, the problems with the voter registration rolls, 
auditing those voter registration rolls, accreditation 
problems, problems with monitors being able to monitor at the 
polling stations and the counting centers.
    A part of our planning, Mr. Chairman, before even venturing 
into the observation process in Zimbabwe was to make sure that 
the delegation team that we have going, because of the 
importance and the problems that are under way in Zimbabwe, has 
been to make sure that we have a very experienced delegation 
team. I think every individual, including staff from both sides 
of the aisle here, have observed elections in the past. We have 
IRI staff members going who have observed anywhere, at least 
from 10 to 12 on up elections, so we are very conscious of the 
serious, serious nature of this election process.
    Mr. Royce. We are going to go to Mr. Don Payne and then to 
Dr. John Cooksey, Congressman from Louisiana, but before we do, 
the last question I would ask is just to name some of the 
countries, if you could, where elections have been found 
unacceptable in terms of fair and free.
    Mr. Pierson. Mr. Chairman, I would have to go back and read 
the statement just to make sure, but the one that does come to 
mind, and I know much of the team we have going to Zimbabwe is 
also a team that went to Azerbaijan and commented on those 
elections. I would like for the record to be able to expand on 
that but that is one country that comes to mind.
    Mr. Merloe. Mr. Chairman, if I may, it is unfortunate to 
say that recently there have been a number of such elections 
and the situation in Zimbabwe must be viewed in that context 
because autocrats and would-be autocrats around the world are 
observing very closely each other.
    What we have witnessed in Peru, for example, is an election 
that did not meet international standards and NDI and the 
Carter Center, which were working jointly there, decided not to 
send an observation team because of that. Azerbaijan was an 
example, but in January of this year in Kyrgyzstan, the 
elections failed to meet international standards.
    We believe that it is unfortunate. There has been such 
progress in Africa. You gave the happy example of Nigeria and 
the Nigerians have played an important role in our observation 
efforts in Zimbabwe, very important efforts that have gone 
forward in Namibia and in Southern Africa in general. We think 
this is an unfortunate retrogression and we think it is 
important to keep a close eye.
    Mr. Royce. Thank you.
    We will now go to Mr. Payne and then Mr. Cooksey.
    Mr. Payne. Thank you very much.
    I am sorry I missed most of the testimony but could you 
just quickly describe what NDI does, as opposed to IRI? I know 
one usually trains local people; others deal with technical 
parts. Could you both give me about a 30-second synopsis of 
what each of you do?
    Mr. Merloe. Yes, thank you, Congressman.
    Mr. Payne. In Zimbabwe.
    Mr. Merloe. In Zimbabwe, yes, of course. In Zimbabwe, over 
the course of the last year and a half, NDI has worked with a 
broad spectrum of political parties to try to reach consensus 
about needed electoral reforms, including the drafting of a 
code of conduct, which was approved by the representatives of 
all parties in February 4 and 5. The executive committees of 
all of the parties except ZANU-PF also have signed that code of 
conduct, sir.
    We have worked to train political party poll watchers. 740 
trainers from all of the parties in all 10 provinces are now 
going and training poll watchers around the country.
    We have taken representatives of the parties and civil 
society to observe elections in neighboring countries that have 
been competitive, such as South Africa and Mozambique.
    We have concentrated our international observation of 
elections, in cooperation with IRI, in the preelection period, 
sir, through our delegation that was there in May and a team of 
10 people that have been observing and will observe for some 
months afterwards. We plan a post-election delegation and will 
have several members joining the IRI international delegation.
    Mr. Payne. Thank you.
    Mr. Pierson. Congressman, we started work in Zimbabwe in 
1993. Approximately 2 years ago we felt that this democratic 
reform movement was really going to take shape and focus, that 
it was a people's movement in Zimbabwe and we quadrupled our 
program activities there. Those activities have ranged from 
support to legal coalitions in Zimbabwe to challenging 
executive or legislative branch rulings or decisions that would 
impact on human rights.
    We are helping to support voter education programs in 
Zimbabwe. We have subgrants with organizations that are working 
to encourage greater woman participation in the political 
process, greater youth participation, and presently we are also 
helping to train over 3,000 domestic monitors.
    We have been there for some time in the preelection period. 
We also, in the post-election period, through the National 
Endowment for Democracy, have funds in which we will train the 
newly elected parliamentarians.
    Mr. Payne. Thank you.
    What other groups are there, like NDI or IRI, from other 
donor countries? Are there others? Do you work along with other 
British or Scandinavian groups?
    Mr. Merloe. Yes, Congressman Payne, we are working very 
closely with the Commonwealth Secretariat that set up its 
observation mission and also the European Union, which has 110 
observers that have been sent to watch this election process. 
They, too, have had problems with their accreditation process.
    We are working, most importantly, very closely with the 
domestic observers that have been involved in the referendum 
and have been monitoring the process since then. So there is a 
close cooperation, not just between the two party institutes 
from the United States but also internationally with the 
observation teams and with the domestic teams.
    Mr. Pierson. Our resident director in Zimbabwe, 
Congressman, yesterday was a part of the briefings with the EU. 
We are in constant contact with all of the other international 
organizations that are there. Obviously frequent contact with 
our colleagues from the National Democratic Institute.
    In terms of deployment, there are the 120 constituencies in 
Zimbabwe; there are approximately 4,000 polling stations. In 
terms of if we do get accredited and a lot of the obstacles 
there get surmounted, then in terms of deployment, IRI, NDI 
delegation, where those deployments will be is also being 
coordinated together so we do not find just one large 
delegation at one or two polling stations. We are working on 
that; coordination is very important.
    Mr. Payne. Thank you.
    Let me just ask Dr. Crocker, when did you serve--was it 
1981 to 1985 or 1985 to 1989 or----
    Mr. Crocker. All the above, Congressman Payne.
    Mr. Payne. When were you the assistant secretary for 
African affairs, if there was such a title at that time?
    Mr. Crocker. 1981 through the middle of 1989.
    Mr. Payne. OK. Then you were there at the time of the 
Lancaster House commitment, so to speak.
    Mr. Crocker. That was the Carter Administration that was in 
office at that time. That was 1979. The fall of 1979 was 
Lancaster House and then the early months of 1980 was the lead-
up to independence, which came in April 1980. I was not yet in 
office until January 1981, sir.
    Mr. Payne. So we cannot totally blame you for that one.
    Mr. Crocker. Not totally, on that one.
    Mr. Payne. You have enough on your plate. We do not need to 
give you that one, right?
    But since you came in shortly after that, and I am looking 
at some of the work done by the Congressional Research Service, 
which usually does a pretty objective job, it talks about this 
question of the land. It says Britain was obligated to finance 
the purchase of land from whites for redistribution in part 
because British subjects had initially taken the land by force, 
particularly because of commitments they felt were made at 
Lancaster House negotiations. I guess this is Mugabe's point.
    Since the whole question of Lancaster House commitments is 
now becoming a tool that Mugabe is using to try to gain some 
upper hand--I mean it is a real issue--what is your 
recollection of what the British said they would do and what 
the Carter Administration said that they would do as it related 
to the land redistribution and compensation?
    Mr. Crocker. Congressman Payne, I do not have a 
photographic memory and that is quite a while ago. I think the 
British were in the lead position on this issue. There were 
probably some encouraging signals--body language and so on--
sent by American diplomats, as well, that in the right context, 
there would be some funding for land reform, but that context 
would have to include a credible program, Zimbabwe program for 
distributing whatever land could be acquired under a willing 
buyer/willing seller basis and, of course, that context has 
never been developed.
    So the issue today in Zimbabwe, if I could fast-forward for 
a minute, is not a shortage of land for distribution; it is 
absence of a governmental program that has any credibility or 
transparency for distributing the land that is available for 
distribution. Several million hectares are available for 
distribution and they have been identified as such. They are 
not even being used.
    So that is not the issue. The issue is the government does 
not have a package, a program in place for deciding who would 
get it and for administering the details of that, which is 
quite complicated.
    I think everyone agrees there needs to be land reform in 
Zimbabwe but not just to cronies from the regime. I think that 
has been the sticking point.
    The British are the experts on what they promised or did 
not promise and I really would have to take your question and 
maybe give you a written answer, look into it a bit more 
closely, sir.
    Mr. Payne. Thank you.
    Just one last point. When the incident between Zimbabwe and 
the U.S.--I think President Carter--was that during your time? 
Do you remember when President Carter was invited on the Fourth 
of July and there was some lower level--some government 
official made some bad remarks? When was that, do you recall?
    Mr. Crocker. That would have been about 1985. If memory 
serves, it was a Fourth of July ceremony and a minister of the 
government of Zimbabwe chose the occasion of the U.S. Fourth of 
July party in to U.S. Embassy to trash the United States. 
President Carter, to his credit, and the entire U.S. diplomatic 
mission walked out of their own reception.
    It is not unusual, actually. There have been other cases in 
U.S.--Zimbabwean relations when one wondered why we were 
talking to each other because it was not working very well, but 
that was certainly one of them.
    Mr. Payne. Thank you.
    Mr. Royce. Mr. Cooksey and then Mr. Meeks.
    Mr. Cooksey. Thank you, Mr. Chairman, and I thank you for 
being here.
    Could I ask a question? Ambassador Nancy Powell is no 
longer here. Is there anyone here from the State Department? 
You are from the State Department, OK.
    I have been dealing with Africa about 2 hours yesterday and 
since 8:30 this morning, back in this room and in my office. I 
missed your testimony.
    Questions. I, too, am concerned about the integrity of the 
elections. We have the same problem in Louisiana. We have a 
story we tell in Louisiana that we sold some old voting 
machines to Mexico and that Edwin Edwards won the first 
election in Mexico that they used them in. It is just that bad; 
it has been that bad in Chicago. In Miami, they overturned a 
Miami election, mayor's election, not too long ago.
    It happens in the United States and it just makes me madder 
that you know what when I see people stealing elections, and 
they go on here and we have been the victims in Louisiana and 
in the United States in various places and it just makes me 
madder than heck that it is going on over there, too. It is the 
same mentality of people that are dishonest, that are 
demagogues, that are power-hungry and do not really care about 
doing the right thing.
    My question then, and I want you to answer this, if we went 
into Nicaragua and tried to get Ortega out, who is a Communist; 
we went into Panama and got Noriega out, who was a drug dealer 
and a hood and a crook; and then we kicked the temporary ruler 
of Kuwait out named Saddam Hussein, and Milosevic in the 
Balkans, why is it that we tippy-toe in Africa?
    Republicans have done it and Democrats have done it. Are 
all of the political leaders cowards? Why aren't they 
consistent? When we talk about human rights with PNTR, with 
China, explain to me why these wimpy politicians in the 
Democrat Party and the Republican Party ignore people who have 
had their arms cutoff in Sierra Leone, people who have been 
brutalized in Zimbabwe, in Mozambique, and I was in Mozambique 
during the last part of that civil war, and in Liberia.
    Anybody want to take that question? The man from the State 
Department, give me an explanation. Give me an excuse for these 
politicians. You are not politicians; you are diplomats; you 
are statesmen.
    But I'll tell you up front I am brutal on politicians 
wherever they are.
    Mr. Pierson. Congressman, I do not want to be an apologist 
for anyone but let me address the situation in Zimbabwe.
    I think in Zimbabwe you have some of the most courageous, 
patriotic people that I have ever seen anywhere. I had the 
opportunity to live in Africa for over 7 years. 1991 I 
negotiated the Peace Corps bilateral agreement for Peace Corps 
to enter into Zimbabwe. I cannot say I am a Zimbabwe expert but 
I have had a long-time interest in the country----
    Mr. Cooksey. When was that?
    Mr. Pierson. 1991, sir.
    I think the people there are among the most courageous,l 
and I am not just talking party people. I mean civil society, 
individuals. One of the things that has impressed me is in 
Zimbabwe this is not just a political party movement. This is a 
people's movement that is going on in which the lines are very 
clear between those who want democratic reform and those who do 
not and will suppress that democratic reform.
    One of the messages that we as an organization in every 
country in which we operate do encourage, though, is that in a 
democracy, you have a peaceful transition. There have been 
times during the course of this where we know that the 
opposition and the reform individuals have brought up the 
possibility of violence against violence and our message has 
always been that we represent, we think, the best democracy in 
the world and in that democracy, political power is gained by 
dialogue, not by arms.
    Now, we know that Mr. Mandela in South Africa, who has had 
long disagreements with Mr. Mugabe, in a statement earlier this 
year in Pretoria, I believe, lot a UNICEF gathering made the 
comment that people should take up arms against tyrants, and he 
was asked, ``Who do you mean?'' and he said, ``You know who I 
mean,'' meaning Mr. Mugabe.
    But I do not think there is any weakness involved. We are 
not talking about military action. We are not encouraging 
people to take up arms. What we are encouraging, Congressman, 
is for people who want democracy to do that in a very peaceful 
way and we think the idea of democracy--they may not win all 
the seats that they expect but as long as they are on that 
path, that is the path that we have always encouraged them to 
do.
    Mr. Cooksey. There is no question that is the best way to 
do it.
    I am an eye surgeon. I was over there working on eye 
surgery. The first year I went over there I was frustrated 
because things were not moving as fast as a manic surgeon--we 
like to move quickly. After a while I kind of got into the 
thing, had the attitude of kudu metati and I thought, are we 
getting into that same mentality in this country?
    Mr. Pierson. I will let my colleague from NDI also speak, 
and Ambassador Crocker, but I would say we need to be very 
tough in terms of Zimbabwe, very, very tough. A part of that 
toughness already I think has been the Sense of the House 
Resolution from the House, the bill introduced by Senator Frist 
to the Africa Subcommittee on the Senate side, which is very 
tough legislation, and that is the kind of thing I think we 
ought to be looking at.
    Mr. Merloe. I will be very brief, Congressman. First, I 
would agree that the House Resolution 500, Senator McCain 
introducing an almost identical resolution in the Senate, the 
Senate bill that has been mentioned, these things all deserve 
serious consideration and the government of this country, as 
well as governments of other countries, I believe, have to 
apply the same standards everywhere, whether it is in Africa, 
whether it is in Latin America, whether it is in Asia or 
Europe, whether it is the former Soviet states or whether it is 
a state coming from a military dictatorship. That is what we 
do. That is what we try to do and all we can do is call on 
others to do so, as well.
    Like many Members of this Subcommittee, I was one of the 
people who supported the movement in Zimbabwe for independence 
and for majority rule and there would be nothing I would like 
better than to bring to you a report that things are moving 
positively there, but they are not.
    What we really should be concentrating upon and it is not 
too early to concentrate upon is the question of what will 
happen in the post-election period. Beyond these elections, 
there is a threat of continuing violence, no matter which way 
the results turn out. There is a possibility of retribution and 
there needs to be a strong signal from the international 
community coming from Washington, coming from Brussels, coming 
from Pretoria, that these sorts of things will not be tolerated 
in Zimbabwe.
    I had the honor to work with President Carter just 10 days 
ago and former President Carazo from Costa Rica drafting a 
letter to the OAS calling on them to call the situation in Peru 
like it was and to take strong measures within the OAS.
    This is a worldwide problem and it is a problem that I 
think we have to address with the kind of forthrightness that 
Members of the Subcommittee have done and to continue to be 
vigilant in the days and the months ahead and not to turn our 
attention away when elections are over.
    The fortunate thing about elections is it concentrates 
international attention on a country as it calls upon the 
citizens to rise to the occasion and to act in the national 
interest. The unfortunate thing is that we often turn our 
attention away to the next problem afterwards, and there is a 
lot to be done in Zimbabwe. The people there, as my colleague 
has pointed out, deserve our support.
    Mr. Crocker. Thank you, and thank you, Mr. Chairman.
    Mr. Royce. We will now go to Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    I am concerned in regards to making sure that there is 
peace, although I do not really know--I just left some young 
people when I left out of here and I talked to them and they 
just made me mindful. I am not sure whether we are the ones 
that can best advise on land reform because coming from 
descendants of slaves myself, I am still waiting for my 40 
acres and a mule of land reform right here in America, and that 
has not happened.
    So I also then was reminded therefore of a statement that 
President Mugabe said and I just was wondering what kind of 
response you would give. He said, ``Land was taken from our 
people during colonization''--this is a direct quote. ``Land 
was taken from our people during colonization without 
compensation but now the British say we must pay compensation 
for the soil stolen from us.''
    Question then is, and we did not do anything. There was a 
question that was asked by the gentlelady from California to 
the secretary beforehand or the Ambassador beforehand in 
regards to what was America's role in trying to make sure that 
there was land reform before we got to this point and I did not 
hear anything that we did that tried to make sure that there 
was a land reform and, in essence, 40 acres and a mule to 
individuals in Zimbabwe after the 1980 revolution in Zimbabwe, 
just as we did not do in our own country.
    So how would you respond? What rational response would you 
submit that we give to Mr. Mugabe and some others who had 
property violently taken from them back during the colonization 
period of time and now some of these people who want the land 
back, they do not have the resources to pay for some of the 
land.
    I understand Mr. Crocker's point that we do have to have a 
process; there has to be a process put in place and it cannot 
go to just the cronies. That point is well taken because we 
have to make sure, but how can we then actively play a role in 
that process and making a difference in regards to land reform 
in Zimbabwe, and responding to Mr. Mugabe's comments, also.
    Mr. Crocker. If I may, with the permission of the chair, I 
do not think anyone debates that land reform is a legitimate 
issue in Zimbabwe, but I think the second point--and clearly, 
land was taken from the indigenous people. That is what 
colonialism was about. It was about taking land and in many 
cases settling land. So there is no debate about the historical 
record. The land was stolen fair and square, just like the 
Panama Canal was in our own history. I do not think anyone 
debates that.
    The issue is in 20 years, what has the government of 
Zimbabwe done to rectify the problem? It has done nothing, 
despite offers of resources and offers of land availability?
    So it has been very hard, I think, for our country to 
figure out a context to work in, precisely as you were saying. 
I think we have tried and Assistant Secretary Powell described 
what we were doing until this thing got interrupted by the 
seizures of land.
    But one final observation I would make is that I do not 
think that President Mugabe wants a solution to this problem. I 
think he wants to use this problem. This problem is not a new 
problem. Every time there has been an election in Zimbabwe 
since independence in 1980 there has been a land reform debate 
and there has been talk about getting access to land for the 
majority of Zimbabweans, but it is stirred up in time for 
elections, Congressman Meeks. It is not, in fact, resolved 
because it is very convenient to use it in elections. I wish it 
were not the case but it is just opportunism.
    Mr. Pierson. I agree in entirety with Dr. Crocker. I think 
the only thing that I would add in terms of information that we 
have seen available to us is that much of the government land 
that has been available has gone to the president, President 
Mugabe, and to government ministers.
    I believe approximately 2 months ago there was finally a 
confidential release and my recollection of 500 different very 
large plots or farms that had been available that the 
government had owned and my recollection, Congressman, is that 
all of that land had gone to ministers or ZANU official at 
extraordinarily low lease rates.
    But I do not think there is anyone--there are very few 
people that would disagree in terms that the land issue is a 
major issue in Zimbabwe and needs to be addressed in a very 
practical, pragmatic way.
    Mr. Merloe. Mr. Chairman, with your permission, just a 
brief response.
    Congressman Meeks, I totally agree with you, both about the 
reference to the United States history, as well as the 
situation in Zimbabwe.
    I had the honor, with our delegation, less than 3 weeks ago 
to sit with Bishop Muzararwa, Reverend Sitole, the Honorable 
Margaret Dongo, who have brought together their political 
parties into the voting pact in opposition. Each of their 
parties has a position on land reform. As we heard from Morgan 
Tsvangirai, his party has a position on land reform.
    I also had the opportunity to sit with the leaders of ZANU-
PF and the National Democratic Institute has maintained 
relationships with ZANU-PF, as well as with the other parties, 
and they, too, talked about the fight for land reform.
    I think there is a unanimity among the majority of people 
within Zimbabwe that land reform is critical. It has been 
critical as the question of independence. It is tied to the 
identify of the country and it is something that has to be 
resolved.
    As members of the international community, I think we have 
to not be hypocritical and call upon our own countries to push 
for this, no matter who may be in government. So I would agree 
with you, sir.
    Mr. Meeks. In fact, I would say we could lead by example. 
Give me my 40 acres and a mule and all of my people who are 
descendants of slavery and then we can show them how we can 
have some true land reform and then maybe they can follow our 
example.
    Thank you, Mr. Chairman.
    Mr. Royce. That concludes our hearing and I want to thank 
our witnesses, our panel.
    I also want to thank Charmaine Houseman. I am going to ask 
her to stand. I want to acknowledge her good work for this 
Committee because she is our staff associate for the Africa 
Subcommittee. She is leaving us after 2 years to attend law 
school and she has done a great job and we wish Charmaine the 
best in law school. Thanks, Charmaine.
    Thank you all for attending this hearing.
    Witnesses, thanks for making the trip out here. We stand 
adjourned.
    [Whereupon, at 12:35 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             June 13, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED]66616.001
    
    [GRAPHIC] [TIFF OMITTED]66616.002
    
    [GRAPHIC] [TIFF OMITTED]66616.003
    
    [GRAPHIC] [TIFF OMITTED]66616.004
    
    [GRAPHIC] [TIFF OMITTED]66616.005
    
    [GRAPHIC] [TIFF OMITTED]66616.006
    
    [GRAPHIC] [TIFF OMITTED]66616.007
    
    [GRAPHIC] [TIFF OMITTED]66616.008
    
    [GRAPHIC] [TIFF OMITTED]66616.009
    
    [GRAPHIC] [TIFF OMITTED]66616.010
    
    [GRAPHIC] [TIFF OMITTED]66616.011
    
    [GRAPHIC] [TIFF OMITTED]66616.012
    
    [GRAPHIC] [TIFF OMITTED]66616.013
    
    [GRAPHIC] [TIFF OMITTED]66616.014
    
    [GRAPHIC] [TIFF OMITTED]66616.015
    
    [GRAPHIC] [TIFF OMITTED]66616.016
    
    [GRAPHIC] [TIFF OMITTED]66616.017
    
    [GRAPHIC] [TIFF OMITTED]66616.018
    
    [GRAPHIC] [TIFF OMITTED]66616.019
    
    [GRAPHIC] [TIFF OMITTED]66616.020
    
    [GRAPHIC] [TIFF OMITTED]66616.021
    
    [GRAPHIC] [TIFF OMITTED]66616.022
    
    [GRAPHIC] [TIFF OMITTED]66616.023
    
    [GRAPHIC] [TIFF OMITTED]66616.024
    
    [GRAPHIC] [TIFF OMITTED]66616.025
    
    [GRAPHIC] [TIFF OMITTED]66616.026
    
    [GRAPHIC] [TIFF OMITTED]66616.027
    
    [GRAPHIC] [TIFF OMITTED]66616.028
    
    [GRAPHIC] [TIFF OMITTED]66616.029
    
    [GRAPHIC] [TIFF OMITTED]66616.030
    
    [GRAPHIC] [TIFF OMITTED]66616.031
    
    [GRAPHIC] [TIFF OMITTED]66616.032
    
    [GRAPHIC] [TIFF OMITTED]66616.033
    
    [GRAPHIC] [TIFF OMITTED]66616.034
    
    [GRAPHIC] [TIFF OMITTED]66616.035
    
    [GRAPHIC] [TIFF OMITTED]66616.036
    
    [GRAPHIC] [TIFF OMITTED]66616.037
    
    [GRAPHIC] [TIFF OMITTED]66616.038
    
    [GRAPHIC] [TIFF OMITTED]66616.039
    
    [GRAPHIC] [TIFF OMITTED]66616.040
    
    [GRAPHIC] [TIFF OMITTED]66616.041
    
    [GRAPHIC] [TIFF OMITTED]66616.042
    
    [GRAPHIC] [TIFF OMITTED]66616.043
    
    [GRAPHIC] [TIFF OMITTED]66616.044
    
    [GRAPHIC] [TIFF OMITTED]66616.045
    
    [GRAPHIC] [TIFF OMITTED]66616.046
    
    [GRAPHIC] [TIFF OMITTED]66616.047
    
    [GRAPHIC] [TIFF OMITTED]66616.048
    
    [GRAPHIC] [TIFF OMITTED]66616.049
    
    [GRAPHIC] [TIFF OMITTED]66616.050
    
    [GRAPHIC] [TIFF OMITTED]66616.051
    
    [GRAPHIC] [TIFF OMITTED]66616.052
    
    [GRAPHIC] [TIFF OMITTED]66616.053
    
    [GRAPHIC] [TIFF OMITTED]66616.054
    
    [GRAPHIC] [TIFF OMITTED]66616.055
    
    [GRAPHIC] [TIFF OMITTED]66616.056
    

</pre></body></html>
